HHS/OIG-Audit--"Operation Restore Trust Audit of Integrated Health Services, Inc. Skilled Nursing Facility, Burbank, Illinois, (A-04-96-01148)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Audit of Integrated Health Services, Inc. Skilled Nursing Facility, Burbank, Illinois," (A-04-96-01148)
March 21, 1997
Complete
Text of Report is available in PDF format (826 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the audit was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1995 through March 31, 1996.
The Operation Restore Trust team questioned $148,955 of the $1,305,163 in Medicare charges reported for the 40 sample
beneficiaries in our audit. This amount is comprised of $60,908 of charges for which the skilled nursing facility (SNF)
could not produce adequate supporting documentation, $55,533 for services which were not reasonable or necessary, and $32,514
of services which are specifically unallowable.
We are recommending an adjustment of the above charges. In addition, we request that a focused review of all rehab therapies
and the physician orders for these therapies be conducted the by the fiscal intermediary in order to recoup overpayments
made to this SNF and to implement corrective action by the facility.